          ~

          NATIONAL
          ARCHIVES
      OFFICE of
 INSPECTOR GENERAL


Date          January 31, 2013

Reply to :    Office oflnspector General (OIG)

Subject   :   Audit Memorandum #13-06: Audit ofNARA's Compliance with the Improper
              Payment Elimination and Recovery Act of 2010

To            DavidS. Ferriero, Archivist of the United States (N)

Pursuant to Section 3(b) ofthe Improper Payments Elimination and Recovery Act of
2010 we have reviewed the National Archives and Records Administration's (NARA)
improper payment reporting in NARA's fiscal year (FY) 2012 Performance and
Accountability Report and accompanying materials, to determine ifNARA is in
compliance with the Improper Payments Information Act of2002, as amended (IPIA).

NARA reported in its FY 2012 Performance and Accountability Report that "To comply with
Improper Payments Elimination and Recovery Act of2010 (IPERA), NARA completed a full
program inventory and performed the risk assessment required by FY 2011 OMB Circular A-
123, APPENDIX C- Improper Payments Information Act of2002 (IPIA), as amended by
IPERA, for submission to OMB. NARA did not identify any programs or activities that may be
susceptible to significant improper payments and has determined that payment recapture audits
would not be cost-effective at this time."

Based on OMB Memorandum M-11-16 agencies shall review all programs and activities
they administer to identify those programs and activities that may be susceptible to
significant improper payments and at least once every three years thereafter for programs
deemed not risk susceptible. Last year NARA reviewed all programs and activities they
administer and determined those programs and activities were not susceptible to risk of
improper payments. NARA is not required to review programs and activities they
administer to identify those programs and activities that may be susceptible to significant
improper payments until FY 2014.

We reviewed NARA's internal control tests and reviews used to identify improper
payments. We believe NARA instituted sufficient internal controls to identify improper
payments.




                                     NARA's web site is http://www.nara.gov
As a result of our review, we believe NARA is in compliance with the intent of the
Improper Payments Information Act of 2002, as amended. Because we had no findings
we are reporting our results in this Audit Memorandum format.

As with all OIG products, we will determine what information is publically posted on our
website from this memorandum. Should you or management have any redaction suggestions
based on FOIA exemptions, please submit them to my counsel within one week from the date
of this letter. Should we receive no response from you or management by this timeframe, we
will interpret that as confirmation NARA does not desire any redactions to the posted report.

Should you have any questions concerning this effort, or require additional information,
please contact me on (30 1) 837-3000.


Respectfully,




James Springs
Acting Inspector General



cc: Senator Joe Lieberman, Chair, U.S. Senate Committee on Homeland Security &
        Governmental Affairs
    Senator Susan Collins, Ranking Member, U.S. Senate Committee on Homeland Security &
        Governmental Affairs
    Representative Darrell Issa, Chair, the House Committee on Oversight and Government
    Reform
    Representative Elijah Cummings, Ranking Member, the House Committee on Oversight and
        Government Reform
    Gene L. Dodaro, Comptroller General ofthe United States
    Danny Werfel, Controller ofthe Office of Management and Budget




                                              Page 2
                               NARA's web site is http://www.nara.gov
